No. 19-435
INTHE

~upreme (!Court of tbe Wniteb ~tates
SIH PARTNERS LLLP, EXPLORER CORPORATION,
TAX MATTERS PARTNER,

v.

Petitioner,

COMMISSIONER OF INTERNAL REVENUE,

Respondent.
CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and

that the Reply Brief for Petitioner contains 2,999 words and complies with the word
limitation established by Rule 33.l(g)(iii) of the Rules of this Court.
Dated: December 17, 2019

Thomas H. Dupree Jr.

